   December 8, 2003




Acquisition

Major Range and Test Facility
Base
(D-2004-035)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CTEIP                 Central Test and Evaluation Investment Program
MRTFB                 Major Range and Test Facility Base
          Office of the Inspector General of the Department of Defense
Report No. D-2004-035                                                    December 8, 2003
   (Project No. D2002AB-0177)

                       Major Range and Test Facility Base

                                 Executive Summary

Who Should Read This Report and Why? Test and evaluation officials who are
responsible for DoD support missions and senior officials responsible for evaluating the
institutional needs of ranges should read this report because it examines the funding, test,
and infrastructure backlog for the maintenance, modernization and repair of
instrumentation, test assets, and analysis and control systems.

Background. This report is in response to a request by the Director, Operational Test
and Evaluation who is responsible for the oversight of test and evaluation facilities. A
second audit will determine the degree to which Central Test and Evaluation Investment
Program funding is used to meet the needs of multi-Service test capabilities and whether
funded programs have subsequently been procured by the Services. The Major Range
and Test Facility Base is a national asset that is sized, operated, and maintained primarily
for DoD test and evaluation support missions, but may also, in accordance with DoD
Directive 3200.11, be available to all users having a valid requirement for its capabilities.
The Major Range and Test Facility Base consists of broad-based test and evaluation
ranges, which are managed and operated to provide support to the DoD Components
responsible for developing or operating materiel and weapon systems. The missions and
tests are conducted at each of the 19 ranges. The missions vary from testing missiles and
aircraft to ensuring that electrical components can survive in various environments.
Some ranges also conduct training exercises.

Results. The Military Departments’ manner, methods, and amounts of funding; method
of collecting and reporting backlogs; and the accounting for charges to customers varied
significantly among the ranges. As a result, the Office of the Secretary of Defense and
the Offices of the Secretaries of the Military Departments did not have comparable data
on the funding levels needed to reduce the backlog of test assets and infrastructure and
support test missions. A standardized accounting system should be developed for the
ranges. In addition, the Financial Management Regulation should be revised to ensure
that uniform types of funding and methods of collecting and reporting backlogs are
available that would provide senior DoD officials with data on which they can make
more informed investment and funding decisions.

Management Comments and Audit Response. The Director, Operational Test and
Evaluation commented on the draft report and concurred with suggested changes.
Although not required to comment, the Director, Army Developmental Test Command
and the Director, Army Test and Evaluation Command provided comments on the report
discussion but did not concur or nonconcur with the recommendations. We redirected
Recommendations 1. and 2. to the Under Secretary of Defense (Comptroller), therefore,
we request that he comment on the final report by January 9, 2004. See the Finding
section of the report for a discussion of management comments and the Management
Comments section of the report for the complete text of comments.
Table of Contents

Executive Summary                                                      i

Background                                                             1

Objectives                                                             2

Finding
     Comparability of Major Range and Test Facility Base Activities    3

Appendixes
     A. Scope and Methodology                                         12
          Management Control Program Review                           12
          Prior Coverage                                              12
     B. List of Ranges                                                14
     C. Range-Specific Results                                        15
     D. Report Distribution                                           26

Management Comments
     Director, Operational Test and Evaluation                        29
     Army Test and Evaluation Command                                 33
     Army Development Test Command                                    37
Background
    Major Range and Test Facility Base (MRTFB). The MRTFB is a national
    asset that is sized, operated, and maintained primarily for DoD test and evaluation
    support missions, but may also be available to all users having a valid
    requirement for its capabilities. The MRTFB consists of a broad base of test and
    evaluation ranges (19), which are managed and operated to provide test and
    evaluation support to the DoD Components responsible for developing or
    operating materiel and weapon systems. The missions and tests conducted at each
    of the 19 ranges are very different and, in some cases, unique. The missions vary
    from testing missiles and aircraft to ensuring that electrical components can
    survive in various environments. The test assets used include, among others,
    aircraft and ships. Some ranges also conduct training exercises. A second audit
    will determine the degree to which Central Test and Evaluation Investment
    Program (CTEIP) funding is used to meet the needs of multi-Service test
    capabilities and whether funded programs have subsequently been procured by
    the Services.

    Test and Evaluation Infrastructure. According to “Reflections on Test and
    Evaluation” in Program Manager, dated July-August 2002, one method of
    viewing and assessing test and evaluation is in the context of facilities. Test and
    evaluation facilities must be efficient and capable of providing the necessary data
    to answer crucial questions on weapon system performance, operational
    effectiveness, suitability, and survivability. Test and evaluation facilities must be
    able to test the most advanced weapon systems and components as well as the
    complexities of a system of systems. The last decade has seen a significant
    deterioration in the facilities at the test ranges. The average age of test and
    evaluation facilities is now more than 40 years.

    The ongoing military transformation requires the test and evaluation community
    to be prepared to test sophisticated systems that use advanced technology.
    Without the resources and funding required to sustain, maintain, and modernize
    test and evaluation, the quality of testing will deteriorate below acceptable limits.
    DoD Guidance. DoD Directive 3200.11, “Major Range and Test Facility Base,”
    May 1, 2002, states the policy and responsibilities for the management and
    operation of specific DoD test and evaluation ranges. The Directive also states
    that all users shall reimburse the MRTFB ranges in accordance with the
    appropriate provisions of Regulation 7000.14-R, “DoD Financial Management
    Regulation,” May 1998, and that all costs incurred by MRTFB ranges in support
    of test and evaluation shall be billed in accordance with DoD Financial
    Management Regulation 7000.14-R. The reimbursement policy was developed to
    allow charges to be established for various customers to cover appropriate costs.
    DoD Components determine the amounts of funding that will be needed to
    directly support the ranges by establishing reimbursements.




                                          1
Objectives
    The audit objectives were to determine the magnitude, in dollars, of the MRTFB
    test infrastructure backlog in maintenance, modernization, and repair of
    instrumentation, test assets, and analysis and control systems and to determine the
    degree of compliance with DoD Directive 3200.11. Results of the audit
    objectives are addressed in detail in Appendix C. The finding was developed to
    highlight differences in the manner in which specific ranges operate.




                                         2
           Comparability of Activities for Major
           Range and Test Facility Base
           The Military Departments’ information on institutional funding and
           backlog of test assets and facilities for MRTFB ranges varied significantly
           because the manner, method, and amounts of funding; the collection and
           reporting of backlog data; and accounting for to charges to customers were
           different. As a result, the Office of the Secretary of Defense and the
           Offices of the Secretaries of the Military Departments did not have
           comparable data when making decisions on the funding levels needed to
           reduce the backlog of the infrastructure and test assets and support test
           missions. In addition, program managers may also have lacked relevant
           information necessary to make more informed test decisions for their
           programs.


Funding
    DoD Financial Management Regulation 7000.14-R (the Regulation) states that
    funding of the MRTFB is designed to:

           •   Ensure the most cost-effective development and testing of material,
               and

           •   Provide for inter-Service compatibility, efficiency, and equity without
               influencing test decisions or inhibiting legitimate and valid testing.

    DoD Directive 3200.11 requires that the MRTFB ranges be funded in a uniform
    manner. The Director, Operational Test and Evaluation indicated that funding
    should be sufficient to support testing, the operation and maintenance of test
    infrastructure, modernization of test capabilities, and the management and
    accounting for such funds. The Directive further states that all costs incurred by
    the MRTFB shall be billed either to the direct appropriations referred to as
    institutional funds or to customers as reimbursable costs in accordance with the
    Regulation. In addition, all costs not paid by customers should be funded by the
    ranges’ direct appropriations.

    However, uniform funding did not occur because the manner, method, and
    amount of funding received by each range varied significantly, both within and
    across the Services. Ranges received differing levels of institutional funding as
    well as funding from other sources, which, according to the Director, Operational
    Test and Evaluation affected their ability to comply with the Directive and fund
    repair and modernization. In addition, funds were withheld from ranges in
    varying amounts.

    As a result, the ranges with less funding from fewer sources had fewer options to
    meet operational requirements and did not always charge costs in the uniform
    manner intended by the Regulation and DoD Directive 3200.11. Those inequities
    may have influenced test decisions and may have inhibited valid testing or


                                         3
           affected the status of infrastructure at the ranges. The Director, Operational Test
           and Evaluation indicated that the ranges lost customers because higher costs
           forced customers to other organizations. Those losses put more stress on
           insufficient institutional funding.


Manner of Funding
           All 19 ranges received two types of funds as their primary sources to operate.
           The first type was “Direct (Institutional) Funds,” which they received from their
           respective headquarters. The second was “Reimbursable Funds,” which the
           ranges received from the customers to test their systems. The ranges also
           received funds from other sources to provide resources for specific program
           needs. We conducted interviews on the MRTFB funding and examined key
           documentation, but we did not verify the numeric and workload data provided to
           the source documents.

           Institutional Funds. All ranges received institutional funds that they used to
           operate their day-to-day test and training operations. The institutional funding
           received, as a percentage of total funding, varied from 19 percent to 81 percent in
           FY 2001.1 The amount of institutional funding received was intended to provide
           for indirect costs that were not paid for by the customer. The more reimbursable
           funds a range receives, the less dependent it is likely to be on institutional funds.
           Thirteen ranges had decreased institutional funds as a percentage of total funds
           from FY 2000 through FY 2002. Six ranges received increased amounts of
           institutional funds. Funding from other sources also helped to determine how
           much reliance the range placed on adequate institutional funding.

           Reimbursable Funds. All ranges received reimbursable funds from customers.
           The reimbursable rates were very different at each range. Ranges with more
           customers generally generated more reimbursable funds and had more flexibility
           when establishing customer rates than ranges with fewer customers. The number
           of customers and tests conducted were important factors in determining the
           amount of reimbursable funds that a range received. The amount of reimbursable
           funds received, as a percentage of total funding for the 19 ranges, varied from 13
           percent to 78 percent in FY 2002.1 The variances were primarily due to the
           significant difference in the number of tests conducted at each facility. However,
           in some cases, reimbursable amounts were increased to meet shortfalls in
           institutional funding. Ranges with fewer reimbursable customers and lower funds
           were much more dependent on their Military Departments for adequate levels of
           institutional funding. Reimbursable funds, as a percentage of total funding for FY
           2000 through 2002, decreased for 7 ranges, increased for 11 ranges, and remained
           steady for 1 range.

           Other Sources. Ranges received funding from sources other than their Military
           Departments’ institutional and reimbursable funds. Those sources consisted of
           congressional add-ons, funds from the CTEIP, funds from other agencies, and

1
    See Appendix C for complete funding details.



                                                   4
    training funds. The sources provided funding for overall test and evaluation
    requirements and specific program needs.

            Congressional Add-Ons. Eleven ranges received funds from
    congressional add-ons and the other eight ranges received no funding. The
    amount of congressional add-ons received for the eleven ranges varied from
    $2 million to $267 million.

            Funds from Other Agencies. Six ranges received funds from other
    agencies for specific purposes. For example, the Pacific Missile Range Facility
    received $23.8 million from the Missile Defense Agency for FY 2002. According
    to the Director, Army Test and Evaluation, Kwajalein also received funds from
    the Missile Defense Agency to refurbish transient housing and, in turn, Missile
    Defense Agency personnel received lower billeting rates until funds were
    amortized. In some cases, those funds provided improvements and
    modernization, which lessened the need to rely on reimbursable expenses or
    Department funds for this purpose. The other 13 ranges did not receive funds
    from other agencies.

    Training. The primary focus of most of the ranges was testing; however, some
    also conducted training. The various ranges were under the control of the
    Military Departments, each of which had different focuses, priorities, and
    functions. Some were exclusively test facilities while others were primarily
    devoted to training. However, because seven ranges received varying amounts of
    training funds from their respective Military Departments, institutional funding
    between the ranges could not be meaningfully compared.

    Because an individual Military Department controls each test range, training
    exercises may have been given priority over the test work of another Military
    Department, an example being the Pacific Missile Range. In addition, whether or
    not an exercise was considered a test or training may have been subject to the
    interpretation of the sponsoring Military Department. Other factors could also
    have distorted comparability. For example, the Electronic Proving Ground at Fort
    Huachuca was under the control of the White Sands Missile Range, which
    performs testing and training missions. Because the Electronic Proving Ground
    funding was intermingled with White Sands Missile Range funding, comparisons
    were further complicated. In another example of the complication from the mixed
    training and test missions, 59 percent of the Pacific Missile Range Facility labor
    hours was for fleet training exercises in FYs 2000 and 2001 and 41 percent was
    for testing. The Point Mugu and China Lake ranges received $4.7 million and
    $8.1 million, respectively, for training exercises in FYs 2001 and 2002.


Methods of Funding
    The methods used to fund the ranges were based on the different philosophies,
    interpretations, and methods of the Military Departments. Inconsistencies in
    funding methods occurred because headquarters distributed funds differently.
    The Military Departments had various approaches for allocating funds,
    withholding funds, and addressing shortfalls. In addition, each range developed


                                        5
           its reimbursement charges based on its individual interpretation of the DoD
           Directive and the DoD Financial Management Regulation.

           Funding by Headquarters. The methods used to distribute funding varied
           among the Services. For example, the Air Force Materiel Command distributed
           funding to the Eglin, Edwards, and Arnold Air Force bases based on proposed
           budgets and historical records. However, the Army Development Test Command
           used labor hours as the basis for allocating institutional funds that the range
           received. This method is based on workload and, although it considers some non-
           labor factors, individual Army ranges complained that it was not necessarily
           based on actual needs because the higher use ranges generated more reimbursable
           funds and would likely need less institutional funds. Ranges with smaller
           workloads received fewer funds when they possibly needed more because they
           were receiving lower reimbursable funds. This method also does not reward
           efficiencies on non-labor-intensive testing or learning-curve improvements. The
           Commander, Army Developmental Test Command contends that pressure for
           efficiencies is generated primarily by customers. Higher test costs result in lower
           workload and lower institutional funding requirements and allocations. Funding
           philosophies varied by Military Department. Air Force ranges had the highest
           percentages of institutional funding, followed by the Navy, with the Army
           locations generally having lower percentages of institutional to total funding.

           Funding Reductions by Headquarters.1 The Military Departments reduced the
           amount of funding distributed to their ranges for various reasons, including
           unexpected congressional reductions, other program overruns, and shifts in the
           priority of the funds. The Navy cut funds by 7 percent before it distributed them
           to four of its ranges, and withheld 14 percent at another range. A percentage of
           those amounts were refundable if not used before the end of the fiscal year. The
           Army Test and Evaluation Command holds 3 percent from every research,
           development, test and evaluation line and 4 percent from every operation and
           maintenance Army line. These dollars are used to pay Department of the Army
           taxes and congressional reductions. In addition, the Army’s Developmental Test
           Command withheld 15 percent of its ranges’ sustaining non-major
           instrumentation funds for Command initiatives such as common instrumentation.
           These funds are redistributed to the ranges based on the priority of
           instrumentation needs. The Air Force withheld 7 percent from one range and
           8 percent from another.

           Funding Shortfalls. The ranges made up for funding shortfalls in various ways
           such as adding a surcharge, increasing rates, reprogramming funds, or cutting
           back on ancillary training, supplies, and the amount of work performed by the
           range contractors. Ranges under the Army’s Developmental Test Command
           added a surcharge to help alleviate any shortfalls. According to Developmental
           Test Command officials, the surcharge was needed because the Army provided
           little institutional funding to pay for the facility upgrades and revitalization that
           are required for adequate maintenance. In addition, base support funding and the
           level of support services decreased. Developmental Test Command customers
           were charged a prorated share of base operations costs, which contravenes DoD
           Directive 3200.11. However, according to the Commander, Army Developmental
1
    See Appendix C for complete funding details.



                                                   6
Test Command, the Army has recognized that customers were charged for
indirect costs that were not their responsibility and has put funds in the FY 2004
Program Objective Memorandum to help alleviate this condition. After ranges
cut expenses to the maximum possible extent, they may have had little choice but
to increase costs. The Navy previously had used a similar approach and charged
a surcharge, but discontinued the practice when it became aware that it violated
the Directive. The Navy and Air Force did not charge surcharges, but each range
made independent decisions on the types and amounts of reductions in supplies,
services, and training.

Customer Charges. DoD Financial Management Regulation 7000.14-R
specifies that different types of customers will be charged different costs. For
instance, DoD customers will reimburse MRTFB ranges for direct costs that are
readily identifiable with a particular customer order. Indirect costs are paid by the
range’s institutional appropriations. Non-DoD customers can be charged direct
costs, as well as the appropriate amounts of indirect costs.

This policy works only if each range is funded in a consistent, uniform manner
with appropriate levels of institutional costs. However, this was not the case. In
some cases, arbitrary amounts of institutional funding were provided based on
target levels of reimbursable funds to be generated, or limitations on increases to
customers were made without considering costs. In addition, each range made
independent determinations of appropriate direct and indirect costs to be charged
to customers. Some ranges had a variety of different funding sources and vastly
different customer bases. As a result, there was no consistent starting point, and
each range had to decide on customer charges based on a unique set of
circumstances. Those decisions affected when, how often, and whether tests
would be conducted at all. Several ranges indicated that the lack of specifics on
charges needed to be addressed in the Directive and the Regulation. The
Commander, Army Developmental Test Command specifically commented on the
lack of specificity in DoD Directive 3200.11.

The costs that were charged to customers varied significantly from one range to
another. Some of the differences were due to the amounts of infrastructure and
assets needed to support tests, and others were due to differences in interpretation
on what constituted a valid charge to customers. Some ranges did not charge
commercial and non-DoD customers different amounts; or in the case of one
Army command, standard factors were developed to cover the additional costs
charged to non-DoD customers. However, the command did not develop those
factors to represent individual range experience. Other ranges could not explain
how they developed certain factors or what costs those factors were designed to
recoup. In addition, at least one range established prices based on a preset
number of tests for one customer. Variances in the number of tests would result
in the range’s subsidizing other customers, or other customers subsidizing the
range. When charges were insufficient to cover costs not funded through direct
institutional appropriations, MRTFB ranges had to choose between cutting back
expenses or increasing costs, or a combination of both.




                                     7
           Range Workloads.1 The workloads of each range varied significantly based on
           the number of customers and tests conducted. The number of tests conducted at
           the ranges varied from 7 launches to more than 41,000 tests conducted in
           FY 2002. In addition, the types of tests varied within a range. The number of
           customers ranged from 3 to 124 in FY 2002.


Amounts of Funding
           Five of 19 ranges received more reimbursable funding than institutional funding,
           while 6 others received similar amounts of institutional and reimbursable funding
           in FY 2002. The High Energy Laser Test Facility generated only 13 percent of its
           total funds from reimbursable customers, while the 46th Test Wing generated 78
           percent of its total funds from reimbursable funds in FY 2002. Eighty percent of
           the High Energy Laser Test Facility funding came from institutional funding,
           while the 46th Test Wing received only 22 percent in institutional funding in
           FY 2002.1 In addition, ranges that had sufficient funds from various sources had
           more flexibility to charge what a customer deemed to be a reasonable price and
           thereby generate more reimbursable revenue. Ranges without sufficient funds
           from other sources charged higher rates. The Commander, Army Developmental
           Test Command admitted that reimbursable rates are directly attributable to
           funding needs, less institutional costs.

           As an example of how dramatic the differences could be in funding streams from
           one range location to another, Kwajalein received $65.2 million in research,
           development, test, and evaluation funding from the Army to support a complete
           range of base operations to include schools, hospitals, and stores. No other
           funding was received as base operations or congressional support. A small
           amount of CTEIP funding was provided. The table below depicts amounts of
           funding from varying sources for FY 2002 for one Army, Navy, and Air Force
           location:

                         Location         Institutional Reimbursable Other Total
                                                   (in millions)
                        Kwajalein         $ 65.2           $ 71.4  $ 4.6 $141.2
                        Atlantic             47.3             21.8     0    69.1
                        Arnold              162.4             90.7   44.5  297.6

Backlog of Infrastructure and Test Assets
           A backlog of infrastructure and test assets occurs when the maintenance and
           repair or the modernization of an asset (unfunded requirement) is not completed
           when needed; thus, the accumulation of items not being completed results in a
           backlog of maintenance and repair of the infrastructure and test assets. The way
           the Services collected and reported backlog information varies among the ranges.


1
    See Appendix C for complete funding details.



                                                   8
           Reviews of individual projects showed a wide range of planning support for
           projects from very detailed to unsupported estimates.

           Infrastructure Backlog. The General Accounting Office (GAO) Report,
           GAO-03-274, “Defense Infrastructure: Changes in Funding Priorities and
           Strategic Planning Needed to Improve the Condition of Military Facilities,” dated
           February 19, 2003, stated that the Services’ information on facility conditions was
           inconsistent, making it difficult for Congress, DoD, and the Services to direct
           funds to facilities where they are most needed and to accurately gauge facility
           conditions. Although DoD developed a standard rating scale to summarize
           facility conditions (C-ratings), each Service has the latitude to use its own system
           frequencies, appraisal scales, and validation procedures.

           The methods used to calculate the amount of infrastructure backlog were different
           by range and by Service. The overall reported infrastructure backlog at the ranges
           varied from $364.0 million in FY 1999 to $339.1 million in FY 2002.1 The
           reported individual organization backlog ranged from $250,000 to $114.5 million
           in FY 1999, from $780,000 to $131.1 million in FY 2000, from $400,000 to
           $142.4 million in 2001, and from $309,000 to $120 million in FY 2002.1 From
           2000 to 2002, the reported backlog decreased at 10 ranges and increased at
           4 ranges. At two ranges, the backlog was reported only for FY 2002, and three
           ranges reported no backlog. In addition, reviews of individual projects showed a
           variation in planning support for projects, which ranged from very detailed to
           unsupported estimates.

           Army Infrastructure Backlog. Five Army ranges used the Installation Status
           Reports to document their infrastructure backlog. Inspectors are used to evaluate
           the conditions of each facility. Three ranges compiled a maintenance and repair
           list of needs and requirements, with the unfunded items going on the backlog list.

           Navy Infrastructure Backlog. Four Navy ranges calculated their infrastructure
           backlog by performing an annual inspection survey. One Navy range reported no
           backlog amounts. The reported items were categorized as critical or deferrable.

           Air Force Infrastructure Backlog. The Air Force ranges calculated their
           backlogs in various ways. The ranges developed a list of needs and requirements
           from all of its directorates within the range. This list was then prioritized and sent
           to headquarters. The unfunded requirements went on the backlog list. Four Air
           Force ranges generated a Maintenance and Repair requirements list. Items not
           found for repair became backlog items and were reviewed on a yearly basis. Two
           ranges used the Budget Execution Review process to generate their backlog lists.

           Test Asset Backlog. The backlog of test assets also varied greatly among the
           ranges, and the systems used to account for backlog were different. All Navy
           ranges stated that they had no backlog (unfunded requirements) of test assets.
           Three ranges combined the backlog of infrastructure and test assets, further
           complicating comparability. One range showed a cumulative amount with no
           breakout of prior year totals. For FY 2002, the backlog for the Army and Air
           Force ranged from $4.5 million to $392.1 million.1 Four Army ranges used the
1
    See Appendix C for complete funding details.



                                                   9
    Instrumentation Development Acquisition Program to collect and report backlog
    information. The projects were prioritized according to importance, with
    unfunded projects becoming backlog. Until the Services start maintaining test
    asset backlogs in the same manner, a realistic comparison of the status of one
    range to another cannot be made.

    Future Investments at the Ranges. The ranges’ plans showed the investments
    in infrastructure and test assets that were required to test future weapon systems.
    Eighteen of the 19 ranges had documented their plans for range improvements for
    future fiscal years. The remaining range did not provide any documented planned
    improvements. White Sands Missile Range identified $689 million in range
    improvements for FYs 2003 through 2010. The Air Force’s 30th Space Wing had
    more than $1 billion in planned improvements for FYs 2003 through 2007, and
    the Nevada Test and Training range had $456.7 million in planned improvements
    for FYs 2003 through 2007. However, those plans were all predicated on
    sufficient funding to implement the improvements.


Accounting Systems
    Accounting Systems Used by Ranges. Congress proposed that all test ranges
    use a uniform accounting system for charging costs to test customers. However,
    the different accounting systems used by the ranges limited the level of
    comparisons that could be done within the timeframe of our review. Four Army
    ranges used the Standard Operations and Maintenance Army Research
    Developmental System when charging the test customers. Two Army ranges used
    the Command Information Management System which, according to the Director,
    Army Test and Evaluation Command, further refines the Standard Operations and
    Maintenance Army Research Development Systems. Five Air Force ranges and
    one Navy range used the Job Order Cost Accounting System. One Air Force
    range used more than one system. Three Navy ranges started using the System
    Application and Products accounting system in FY 2003. Another Navy range
    used the Business Information System to track test costs. Thus, the 19 ranges
    used different accounting systems when charging costs to the test customers.


Conclusion
    By minimizing the differences in the manner, method, and amounts of funding in
    the collection and reporting of backlog data and in the accounting systems, senior
    DoD managers can use comparable data when making investment and funding
    decisions for ranges and their assets. Program managers would also be able to
    make more informed decisions about testing at the ranges. The Under Secretary
    of Defense (Comptroller) could assist the Director, Operational Test and
    Evaluation in minimizing those differences and increasing comparability.




                                        10
Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of management comments, we revised
    Recommendations 1. and 2. We redirected Recommendations 1. and 2. to the
    Under Secretary of Defense (Comptroller) as the primary office for action
    because the recommendations concern accounting and financial management. We
    also changed Recommendation 2. to refer to the Financial Management
    Regulation rather than DoD Directive 3200.11 for developing a uniform funding
    system.

    We recommend that the Under Secretary of Defense (Comptroller), in
    coordination with the Director, Operational Test and Evaluation:
            1. Develop a single financial management and accounting system for
    test ranges.

    Management Comments. The Director, Operational Test and Evaluation
    concurred. Although not required to comment, the Director, Army Test and
    Evaluation Command concurred, stating that the Bob Stump National Defense
    Authorization Act for FY 2003 directed the Secretary of Defense to implement a
    single financial management and accounting system for all DoD test and
    evaluation facilities by September 30, 2006.

            2. Revise the Financial Management Regulation (DoD 7000.14-R) to
    provide consistency in types and methods of funding, uniformity in
    classifying direct and indirect costs billable to DoD and Non-DoD customers,
    and consistent methods for collecting and reporting backlogs.

    Management Comments. The Director, Operational Test and Evaluation stated
    that the Financial Management Regulation rather than the DoD Directive 3200.11
    is the primary source of financial policy; DoD Directive 3200.11 merely refers to
    the policy specified in DoD 7000.14-R.

    Audit Response. We revised the draft recommendation to omit DoD Directive
    3200.11 and include the Financial Management Regulation.




                                       11
    Appendix A. Scope and Methodology
    We examined the funding at 19 ranges; the test and infrastructure backlog in
    maintenance, modernization and repair of instrumentation, and test assets; and
    analysis and control systems for FYs 1998 through 2002. We also examined
    investment and operations funding associated with the MRTFB to determine the
    degree of compliance with DoD Directive 3200.11.

    We conducted interviews on the MRTFB funding and backlog and examined key
    documentation dated from FYs 1998 through 2002. Key documentation included
    a backlog of maintenance and repair of infrastructure and test assets, MRTFB
    exhibit sheets containing institutional and customer funding, range master plans,
    and command briefings. We obtained funding and workload information from
    MRTFB personnel and records. We did not validate the accuracy of the data
    obtained to source documents. We also examined the investment, maintenance,
    and operations funding associated with the MRTFB.

    We did not examine the Central Test and Evaluation Investment Program. We
    collected funding data, but did not determine whether funds used met the needs
    for multi-Service test capabilities and whether programs were being procured by
    the Services. Those tasks will be accomplished during the next phase of the
    review. We performed this audit from July 2002 through August 2003 in
    accordance with generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the DoD Infrastructure Management high-risk area.


Management Control Program Review
    We did not review the management control program because it was not an
    announced objective. This audit was conducted in response to a request by the
    Director, Operational Test and Evaluation


Prior Coverage
    During the past 5 years the General Accounting Office (GAO) has issued one
    report on the condition of military facilities. Unrestricted GAO reports can be
    accessed over the Internet at http://www.gao.gov/.




                                        12
GAO
  GAO Report No. GAO-03-274, “Defense Infrastructure: Changes in Funding
  Priorities and Strategic Planning Needed to Improve the Condition of Military
  Facilities,” February 19, 2003




                                     13
Appendix B. Ranges

Army
White Sands Missile Range (White Sands)
Aberdeen Test Center (Aberdeen)
High Energy Laser Systems Test Facility (HELSTF)
Yuma Proving Ground (Yuma)
Dugway Proving Ground (Dugway)
U.S. Army Kwajalein Atoll (Kwajalein)

Navy
Naval Air Warfare Center – Weapons Division, Point Mugu
Naval Air Warfare Center – Weapons Division, China Lake
Naval Air Warfare Center – Aircraft Division, Patuxent River (Pax River)
Atlantic Undersea Test and Evaluation Center (AUTEC)
Pacific Missile Range Facility (PMRF)

Air Force
45th Space Wing (Patrick Air Force Base)
30th Space Wing (Vandenberg Air Force Base)
Air Armament Center, 46th Test Wing (Eglin Air Force Base)
Nevada Test and Training Range (NTTR)
Utah Test and Training Range (UTTR)
Arnold Engineering Development Center (AEDC)
Air Force Flight Test Center (AFFTC)

Defense Information Systems Agency
Joint Interoperability Test Command (JITC)




                                          14
                                                                    Categories of Funding Sources
                                                                   Congressional          Other     Total Other
     Range                      Institutional    Reimbursable         Add-ons    CTEIP   Agencies    Funds        I&M1




                                                                                                                         Appendix C. Range-Specific Results
                                                                                                                                                              ________________________________________________________
     Army
     White Sands                    x2                 x                 x       x          -          x           3

     Aberdeen                       x2                 x                 -       x          x          x           3

     HELSTF4                        x                  x                 x       -          -          x           x
                                                                                                                   3
     Yuma                           x                  x                 x       x          x          x
                                                                                                                   3
     Dugway                         x                  x                 x       x          -          x
     Kwajalein                      x2                 x                 -       x          x          x           x
     Navy
     Point Mugu                     x2                 x                 -       x          -          x           x
     China Lake                     x2                 x                 -       x          -          x           x
     Patuxent River                 x                  x                 x       x          -          x           x
     Atlantic                       x                  x                 -       -          -          -           x
     Pacific Missile Range          x2                 x                 x       -          x          -           -
     Air Force
     Patrick                        x                  x                 x       -          -          -           x
     Vandenberg                     x                  x                 x       -          x          -           -
15




     Eglin                          x                  x                 -       x          -          x           x
     NTTR5                          x                  x                 x       -          -          x           x
     UTTR6                          x                  x                 x       -          x          x           x
     Arnold                         x                  x                 x       x          -          x           x
     Air Force Flight               x                  x                 -       x          -          x           x
     DISA7
     JITC8                          x                  x                 -       x          -          -           -




     1
       Improvement and Modernization.
     2
        RDT&E funds are synonymous with institutional funding.
     3
        Improvement and Modernization amounts were not provided.
     4
        High Energy Laser Systems Test Facility.
     5
        Nevada Test and Training Range.
     6
        Utah Test and Training Range.
     7
        Defense Information Systems Agency.
     8
        Joint Interoperability Test Command.
                                 Percentage of Reimbursement Funds to Total Funding for FYs 1998 through 20021

     Range                               FY 1998                  FY 1999             FY 2000             FY 2001           FY 2002
                                                                                   (percent)




                                                                                                                                            ________________________________________________________
     Army
     White Sands                             42                      43                   39                 41                 43
     Aberdeen                                65                      65                   65                 70                 72
     HELSTF2                                  3                       3
                                                                                          16                 16                 13
     Yuma                                    69                      60                   60                 48                 45
     Dugway                                  31                      34                   34                 41                 37
     Kwajalein                               18                      20                   22                 22                 27
     Navy
     Point Mugu                              49                      45                   47                 46                 49
     China Lake                              49                      45                   47                 46                 49
                                              3
     Patuxent River                                                  49                   50                 51                 50
     Atlantic                                31                      25                   30                 25                 32
     Pacific Missile Range                   27                      29                   29                 22                 22
     Air Force
     Patrick                                 28                      29                   24                 23                 27
     Vandenberg                              34                      35                   51                 49                 44
                                              3
     Eglin                                                           75                   73                 77                 78
16




     NTTR4                                   23                      24                   22                 25                 24
     UTTR5                                   36                      29                   28                 26                 25
     Arnold                                  35                      39                   38                 31                 30
     Air Force Flight                        47                      46                   43                 45                 49
     DISA6
     JITC7                                   64                      65                   65                 54                 548




     1
       Total funds represent reported total operating activity; funds, such as congressional add-on, would not be included in this total.
     2
       High Energy Laser Systems Test Facility.
     3
       Data were not provided.
     4
       Nevada Test and Training Range.
     5
       Utah Test and Training Range.
     6
       Defense Information Systems Agency.
     7
       Joint Interoperability Test Command.
     8
       Calculation was made through June 30, 2002.
                                    Percentage of Institutional Funds to Total Funding for FYs 1998 through 20021
     Range                               FY 1998                  FY 1999             FY 2000             FY 2001           FY 2002
                                                                                   (percent)
     Army




                                                                                                                                            __________________________________________________________________
     White Sands                             34                      39                   44                 39                 43
     Aberdeen                                32                      31                   33                 27                 26
     HELSTF2                                  3                       3
                                                                                          84                 81                 83
     Yuma                                    19                      21                   23                 34                 34
     Dugway                                  48                      46                   50                 42                 41
     Kwajalein                               28                      26                   23                 27                 24
     Navy
     Point Mugu                              51                      55                   53                 54                 51
     China Lake                              51                      55                   53                 54                 51
                                              3
     Patuxent River                                                  28                   31                 33                 30
     Atlantic                                69                      75                   70                 75                 68
     Pacific Missile Range                   50                      61                   63                 49                 49
     Air Force
     Patrick                                 72                      71                   76                 77                 73
     Vandenberg                              66                      65                   49                 51                 56
                                              3
     Eglin                                                           25                   27                 23                 22
17




     NTTR4                                   77                      75                   78                 75                 76
     UTTR5                                   64                      71                   72                 74                 75
     Arnold                                  64                      60                   62                 68                 68
     Air Force Flight                        53                      54                   57                 55                 51
     DISA6
     JITC7                                   13                      12                   12                 19                 198




     1
       Total funds represent reported total operating activity; funds, such as congressional add-on, would not be included in this total.
     2
       High Energy Laser Systems Test Facility.
     3
       Data were not provided.
     4
       Nevada Test and Training Range.
     5
       Utah Test and Training Range.
     6
       Defense Information Systems Agency.
     7
       Joint Information Test Command.
     8
       Calculation was made through June 30, 2002.
                                                               Percentage of Funds Withheld
                                                               Assistant Secretary of




                                                                                                              ________________________________________________________________
                                 Developmental Test            Navy/NAVAIR1/Navy Air Force Materiel
     Range                          Command                        Comptroller          Command       Other
                                                                              (percent)

     Army
     White Sands                        152                           0                   0            7
     Aberdeen                           152                           0                   0            7
     Yuma                               152                           0                   0            7
     Dugway                             152                           0                   0            7
     Kwajalein                           0                            0                   0           1-33
     Navy4
     Point Mugu                          0                            2/5                 0            0
     China Lake                          0                            2/5                 0            0
     Patuxent River                      0                            2/5                 0            0
     Atlantic                            0                            2/5                 0            0
     Pacific Missile Range               0                            14                  0            0
18




     Air Force
     Arnold                              0                            0                   8            0
     Air Force Flight                    0                            0                   7            0




     1
       Naval Air Systems Command.
     2
       Withheld from Test Instrumentation Sustainment Funds.
     3
       Funds withheld is for FYs 1999 through 2002.
     4
       ASN withheld 2 percent and NAVAIR withheld 5 percent.
                                                          Compensation for Shortfalls in Funding

                                                                                                     Cutting
                                                                             Redirect Funds From    Contract




                                                                                                                                         ___________________________________________________________________
                                                               Appeal to     Program    Other      Labor Hours     Cut         No
     Range                     Raise Rates        Surcharge   Headquarters    Funds    Agencies    & Workload    Expenses   Shortfalls

     Army
     White Sands                   x                 x            x            x         -              x            x         -
     Aberdeen                      -                 x            -            -         -              -            -         -
     HELSTF1                       -                 -            -            -         -              -            x         -
     Yuma                          x                 x            x            x         x              x            x         -
     Dugway                        -                 x            -            -         -              -            -         -
     Kwajalein                     -                 -            -            -         -              x            x         -
     Navy
     Point Mugu                    -                 -            x            x         -              -            -         -
     China Lake                    -                 -            x            x         -              -            -         -
     Patuxent River                -                 -            x            -         -              -            -         -
     Atlantic                      -                 -            x            -         -              x            x         -
     Pacific Missile Range         -                 -            -            -         -              -            -         x
19




     Air Force
     Patrick                       -                 -            -            x         -              x            -         -
     Vandenberg                    -                 -            x            -         -              x            -         -
     Eglin                         x                 -            x            x         -              -            x         -
     NTTR2                         x                 -            x            -         -              -            -         -
     UTTR3                         -                 -            x            -         -              x            -         -
     Arnold                        -                 -            x            x         -              x            x         -
     Air Force Flight              -                 -            x            -         -              x            x         -
     DISA4
     JITC5                         -                 -            -            -         -              -            -         x




     1
       High Energy Laser Systems Test Facility.
     2
       Nevada Test and Training Range.
     3
       Utah Test and Training Range.
     4
       Defense Information Systems Agency.
     5
       Joint Interoperability Test Command.
                                               Number of Tests and Customers for FYs 2001 through 2002

                                                  Number of Tests Conducted                        Number of Customers
     Range                                      FY 2001               FY 2002                   FY 2001            FY 2002
     Army
     White Sands                                   228                         217                  59               55
     Aberdeen                                      6351                        6152                1491             1242




                                                                                                                             _______________________________________________________________
     HELSTF3                                        41                          29                   9                9
     Yuma                                          364                         347                  72               82
     Dugway                                        165                         1434                 58               52
     Kwajalein                                  41,7765                     41,8875                  3                3
     Navy
     Point Mugu                                  2,980                       3,622                   6                6
     China Lake                                  7,878                       8,223                   6                6
     Patuxent River                              1,065                         9806                  7                7

     Atlantic                                      264                         299                  27               33
     Pacific Missile Range                         172                         320                  11               10
     Air Force
                                                     8                            8                  8                8
     Patrick
                                                         9                            9
     Vandenberg                                      8                           7                   7                6
     Eglin                                       4,377                       3,48510                4011             4010
     Nevada Test and Training Range                 62                          82                  35               35
20




     Utah Test and Training Range                   46                          58                  20               20
     Arnold                                         66                          654                 34               34
     Air Force Flight                              501                         379                  37               27
     DISA12
     JITC13                                         13                           13                 13               13




     1
       Data for July 2001.
     2
       Data for July 2002.
     3
       High Energy Laser Systems Test Facility.
     4
       Data through August 2002.
     5
       Number of tests conducted consist of sensor testing; testing classification differs from other ranges.
     6
       Test events were projected for 2002.
     7
       Information was not provided.
     8
       Information was too voluminous to provide.
     9
       Number of launches.
     10
        Data through July 2002.
     11
        Numbers are approximate.
     12
        Defense Information Systems Agency.
     13
        Joint Interoperability Test Command conducted 1,800 tests but did not provide a breakout by fiscal year.
                                                Identification of Infrastructure and Test Assets Backlog

                                                                                Instrumentation
                                     Installation   Installation    Annual       Development Maintenance           Budget
                                       Status        Planning      Inspection    Acquisition      and             Execution      No




                                                                                                                                           _______________________________________________________________
     Range                             Report         Board         Survey         Program      Repair List        Process      Backlog

     Army
     White Sands                         x               -              -              x               -               -           -
     Aberdeen                            x               -              -              x               -               -           -
     HELSTF1                             -               -              -              -               x               -           -
     Yuma                                x               -              -              x               x               -            -
     Dugway                              x               x              -              x               -               -            -
     Kwajalein                           x               -              -              -               x               -            -
     Navy
     Point Mugu                          -               -              x              -               -               -            -
     China Lake                          -               -              x              -               -               -            -
     Patuxent River                      -               -              x              -               -               -            -
     Atlantic                            -               -              x              -               -               -            -
     Pacific Missile Range               -               -              -              -               -               -            x
21




     Air Force
     Patrick                             -               -              -              -               x               -            -
     Vandenberg                          -               -              -              -               -               x            -
     Eglin                               -               -              -              -               x               -            -
     NTTR2                               -               -              -              -               -               x            -
     UTTR3                               -               -              -              -               -               -            -
     Arnold                              -               -              -              -               x               -            -
     Air Force Flight                    -               x              x              -               x               -            -
     DISA4
     JITC5                               -               -              -              -               -               -            x
     Total                               5               2              5              4               7               2            2




     1
       High Energy Laser Systems Test Facility.
     2
       Nevada Test and Training Range.
     3
       Utah Test and Training Range backlog is maintained by the Air Force Materiel Command which only reports a backlog of test assets.
     4
       Defense Information Systems Agency.
     5
       Joint Interoperability Test Command.
                                                   Backlog of Infrastructure for FYs 1998 through 2002
                                                                                                                                Increase
                                                                                                                              or Decrease
                                                                                                                               from 2000-
     Range                             FY 1998              FY 1999             FY 2000          FY 2001           FY 2002        2002
                                                                              ($ in millions)




                                                                                                                                            _____________________________________________________________
     Army
     White Sands                        $12.90                $29.90             $16.50           $15.10            $40.50      Increase
     Aberdeen                             8.50                  2.00               3.50             4.20              1.70      Decrease
     HELSTF1                               2                     2                   2                 2
                                                                                                                      8.00         -
     Yuma                                11.50                 11.40              12.40             8.90             17.70      Increase
     Dugway                              66.00                 89.10             117.20            80.30              4.80      Decrease
     Kwajalein                           10.30                  3.00               8.70             8.00             26.00      Increase
     Navy
     Point Mugu/China Lake3                2
                                                               57.60              52.80             47.20            46.80      Decrease
                                           2
     Patuxent River                                            25.80              23.90             21.80            18.70      Decrease
     Atlantic                              5.40                 5.40               8.40              8.10            10.10      Increase
     Pacific Missile Range                 n/a5                 n/a5               n/a5              n/a5             n/a5         -
     Air Force
     Patrick                             46.70                 21.60              50.30             37.50            36.80      Decrease
                                           2
     Vandenberg                                                 1.60               4.50               .40             1.20      Decrease
22




                                           2                     2                   2                 2
     Eglin                                                                                                            3.30        -
     NTTR4                                3.60                  1.80              3.30              9.60              3.20      Decrease
     UTTR                                 n/a5                  n/a5              n/a5              n/a5              n/a5        -
     Arnold                             123.40                114.50            131.10            142.40            120.00      Decrease
     Air Force Flight                     0                      .30               .80               .80               .30      Decrease
     DISA6
     JITC7                                 n/a5                 n/a5               n/a5              n/a5              n/a5        -




     1
       High Energy Laser Systems Test Facility.
     2
       Data not provided.
     3
       Point Mugu and China Lake operate as a single business organization; therefore, data will be shown as one entity.
     4
       Nevada Test and Training Range.
     5
       Not applicable; organization does not have a backlog of infrastructure.
     6
       Defense Information Systems Agency.
     7
       Joint Interoperability Test Command.
                                                Backlog of Test Assets for FYs 1998 through 2002


     Range                         FY 1998            FY 1999           FY 2000         FY 2001        FY 2002      Total




                                                                                                                                _________________________________________________________________
                                                                      ($ in millions)

     Army
     White Sands                   $104.90            $298.20           $259.90         $337.90         $392.10    $1,393.00
     Aberdeen                       132.90             149.50            146.60          165.30          127.70       722.00
     HELSTF1                         n/a2               n/a2              n/a2            n/a2            n/a2        n/a2
     Yuma                             03                22.50             26.80           26.90           27.30       103.50
     Dugway                          11.60              03                52.30           27.80           14.90       106.60
                                      2                  2                 2
     Kwajalein                                                                            20.802          17.202       38.002
     Air Force
     Patrick                         n/a2               n/a2               n/a2           n/a2            n/a2        n/a2
     Eglin                           n/a4               n/a4               n/a4           n/a4            n/a4        138.30
     UTTR                            38.10              38.10              38.10          38.10           53.20       205.60
     Arnold                          13.70              10.00              13.20          27.20           29.50        93.60
     Air Force Flight                25.40                .60               1.30           3.70            4.50        35.50
23




     1
       High Energy Laser Systems Test Facility.
     2
       Backlog of test assets is combined with infrastructure.
     3
       Out Year Program Objective Memorandum requirements submitted by Yuma in FY 1998 and Dugway in FY 1999
        were less than current Program Objective Memorandum funding guidance for those years.
     4
       The total amount was not broken out by year.
                                                                  Accounting Systems

                              Standard           Enterprise
                             O&M1 Army            Resource                    Job Order    Command             JITC Project




                                                                                                                                    ___________________________________________________________________
                             Research &       Planning/Systems Business         Cost      Information             and
                             Development      Applications and Information   Accounting   Management            Accounting
     Range                     Systems            Products       System        System       Systems   Microbas   System     Other

     Army
     White Sands                 x                   -             -             -            -           -         -         -
     Aberdeen                    x                   -             -             -            -           -         -         -
     HELSTF2                     x                   -             -             -            x           -         -         -
     Yuma                        x                   -             -             -            -           -         -         -
     Dugway                      x                   -             -             -            -           -         -         -
     Kwajalein                   x                   -             -             -            x           -         -         -
     Navy
     Point Mugu                  -                   x             -             -            -           -         -         -
     China Lake                  -                   x             -             -            -           -         -         -
     Patuxent River              -                   x             -             -            -           -         -         -
     Atlantic                    -                   -             -             x            -           -         -         -
     Pacific Missile Range       -                   -             x             -            -           -         -         -
24




     Air Force
     Patrick                     -                   -             -             x            -           -         -         -
     Vandenberg                  -                   -             -             x            -           -         -         -
     Eglin                       -                   -             -             x            -           -         -         x
     Nevada Test/Training        -                   -             -             -            -           -         -         x
     Utah Test/Training          -                   -             -             x            -           -         -         -
     Arnold                      -                   -             -             -            -           x         -         -
     Air Force Flight            -                   -             -             x            -           -         -         -
     DISA3
     JITC4                       -                   -             -             -            -           -         x         -
     Total                       6                   3             1             6            2           1         1         2




     1
       Operations and Maintenance.
     2
       High Energy Laser Systems Test Facility.
     3
       Defense Information Systems Agency.
     4
       Joint Interoperability Test Command.
                                                                  Future Range Improvements
     Range                           FY 2003               FY 2004              FY 2005           FY 2006          FY 2007
                                                                          ($ in millions)
     Army




                                                                                                                                              __________________________________________________________________
                                         1                    1                      1                1                1
     White Sands
                                         2                    2                      2                2                2
     Aberdeen
     HELSTF3                             2
                                                              1.30                  2.60              4.60             4.40
     Yuma                                7.80                 6.80                  6.70              8.50            10.30
     Dugway                             10.00                20.90                 15.40             10.80             8.00
     Kwajalein                          12.70                12.00                  2.70              3.40             3.40
     Navy
     Point Mugu4                        21.70                48.70                 22.20              2                2
                                                                                                      2                2
     Patuxent River                     12.60                14.10                 15.40
                                                                                                      2                2
     Atlantic                            7.50                 4.40                  6.20
                                         5                    5                      5                5                5
     Pacific Missile Range
     Air Force
     Patrick                          116.50                134.10                148.70            168.60           167.90
     Vandenberg                       200.00                205.00                205.00            250.00           250.00
     Eglin                             77.10                 61.90                 37.40             25.70            10.90
     Nevada Test/Training              50.70                112.20                 95.80             97.70           100.30
25




     UTTR6                                .20                   .60                  .70                .04            2

     Arnold                            26.20                119.20                 36.80             43.90            27.60
     Air Force Flight                  34.00                 40.20                 44.20             41.80            40.20
     DISA7
     JITC8                               n/a8                 n/a8                  n/a8              n/a8             n/a8



     1
       White Sands Missile Range has $689 million planned for range improvements in FYs 2003 through 2010; amounts could not be broken out.
     2
       Data not provided to support future range improvement amounts.
     3
       High Energy Laser Systems Test Facility.
     4
       Point Mugu and China Lake operate as a single business organization; therefore data will be shown as one entity.
     5
       Pacific Missile Range has $389 million planned for range improvements in FYs 2003 through 2009.
     6
       Utah Test and Training Range amounts were estimated.
     7
       Defense Information Systems Agency.
     8
       Joint Interoperability Test Command; not applicable, no future funds planned.
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Under Secretary of Defense for Personnel and Readiness
Vice Chairman of the Joint Chiefs of Staff
Director, Operational Test and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Commander, U.S. Army Aberdeen Test Center
Commander, U.S. Army Dugway Proving Ground
Commanding General, U.S. Army Space and Missile Defense Command
Commander, U.S. Army Yuma Proving Ground
Commanding General, U.S. Army White Sands Missile Range
Commander, U.S. Army Kwajalein Atoll
Auditor General, Department of the Army
Director, High Energy Laser Systems Test Facility

Department of the Navy
Commander, Naval Air Warfare Center – Aircraft Division
Commander, Naval Air Warfare Center – Weapons Division
Commander, Atlantic Undersea Test and Evaluation Center
Commander, Pacific Missile Range Facility
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Commander, 45th Space Wing, Patrick Air Force Base
Commander, 30th Space Wing, Vandenberg Air Force Base
Commander, Arnold Engineering Development Center
Commander, Nevada Test and Training Range
Commander, Air Force Flight Test Center
Commander, Hill Air Force Base
Commander, 46th Test Wing, Eglin Air Force Base
Auditor General, Department of the Air Force




                                          26
Other Defense Organization
Commander, Joint Interoperability Test Command, Defense Information Systems Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee of Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        27
Director, Operational Test and Evaluation
Comments
                                            Final Report
                                             Reference




                                            Revised,
                                            Page 11




                                            Revised,
                                            Page 11




                      29
Final Report
 Reference




Revised,
Executive
Summary


Revised,
Executive
Summary




Revised,
Page 3




               30
     Final Report
      Reference




     Revised,
     Page 5
     Deleted,
     Page 5


     Deleted,
     Page 5




     Revised,
     Page 8




31
Final Report
 Reference




               32
Army Test and Evaluation Command
                                   Final Report
                                    Reference




                    33
Final Report
 Reference




               34
     Final Report
      Reference




     Added,
     Page 26

     Revised,
     Page 26

     Revised,
     Page 15-25

     Revised,
     Page 5



     Revised,
     Page 10

     Added,
     Page 24

     Added,
     Page 23




35
Final Report
 Reference




               36
Army Developmental Test Command
                                  Final Report
                                   Reference




                   37
Final Report
 Reference




Revised,
Page 4, 8




               38
     Final Report
      Reference




     Added,
     Page 4




     Added,
     Page 6




39
Final Report
 Reference




Added,
Page 7




Revised,
Page 7




               40
     Final Report
      Reference




     Revised,
     Page 10




41
Final Report
 Reference




               42
     Final Report
      Reference




     Revised,
     Page 23




43
Team Members
The Acquisition Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Bruce A. Burton
Michael E. Simpson
Ronald L. Nickens
Carrie J. Gravely
Timothy Miller
Shavon M. Carter
Paul R. Glenn
Jacqueline N. Pugh
